Monthly Update Report Data (sheet 1 of 2) Version 1.0
         Reporting OIG: Amtrak OIG

     Month Ending Date:   04/30/2009
       Submitter Name: Bret Coulson

  Submitter Contact Info: coulsob@amtrak.com

                                       Recovery Act Funds Used on Recovery Act Activity
   Program Source/        Program Source/Treasury       Total Funding           Total Obligations        Total Gross Outlays
   Treasury Account       Account Symbol: Account
 Symbol: Agency Code               Code

                                                                         $0                         $0                         $0


                                     Non-Recovery Act Funds Used on Recovery Act Activity
   Program Source/        Program Source/Treasury       Total Funding           Total Obligations        Total Gross Outlays
   Treasury Account       Account Symbol: Account
 Symbol: Agency Code               Code

                                                                    $45,286                   $45,286                  $24,531
      Monthly Update Report Data (sheet 2 of 2)
                                                   Reporting OIG:
                                                                    Amtrak OIG
                                              Month Ending Date:
                                                                                                                        4/30/2009
                                       Recovery Act Funds Used on Recovery Act Activity

No. Short bulleted list of the major actions taken to date             Short bulleted list of the major planned actions

  1
  2
  3


                                    Non-Recovery Act Funds Used on Recovery Act Activity

No. Short bulleted list of the major actions taken to date             Short bulleted list of the major planned actions

    Infrastructure                                                  Infrastructure
    a. Established the OIG's charter, mandate, and work methods     a. Complete the setup of OIG's technical infrastructure for
    regarding stimulus oversight                                    stimulus oversight
    b. Established the OIG's initial technical infrastructure for   b. Hire a senior OIG manager dedicated to the oversight of
    stimulus oversight                                              Amtrak's stimulus program
    c. Began the establishment of a Risk Management method          c. Continue the setup of OIG's risk management program and
    and toolset, and drafted a preliminary risk assessment of       toolset
  1 Amtrak's stimulus portfolio
    Portfolio-Level Activities                                      Portfolio-Level Activities
    a. Reviewed the candidacy of Amtrak's stimulus portfolio        a. Participate in the procurement guidelines being established
    against the legislative text and OMB's stimulus guidelines      between Amtrak, first level contractors, and second level sub-
    b. Reviewed and critiqued the grant agreement that had been     contractors
    established between the Federal Railroad Administration         b. Complete the review of all programs whose candidacy for
    (FRA) and Amtrak for ARRA program management                    ARRA funding is being questioned by the OIG
  2
    Program-Level Activities                                        Program-Level Activities
    a. Planned and scheduled an assessment of ARRA                  a. Continue the assessment of ARRA management
    management procedures being established for rail car            procedures being established for rail car refurbishment
    refurbishment
  3


                           Office of Inspector General Activities and Accomplishments
      Audits/Inspections/Evaluations/Reviews Initiated          1    Audits/Inspections/Evaluations/Reviews Issued               0
                               Investigations Initiated         0                             Investigations Closed              0
        Complaints of Whistleblower Reprisal Initiated          0     Complaints of Whistleblower Reprisal Closed                0
                       Guidance Statement for Monthly Update Report to OMB

This spreadsheet provides the format to be used by the Office of Inspectors General in reporting
monthly updates to OMB on funding activity relating to the Recovery Act oversight activities. The first
worksheet (Monthly Update) is to report both Recovery Act funding and non-Recovery Act funding
activity directly relating to Recovery Act operations. Information reported on this worksheet is overall
summary level data and should be reported on a cumulative basis.

The second worksheet (Major Actions) reflects Recovery Act major actions, both taken to date and
planned by the OIG. This worksheet is broken out into three major sections. Two sections are for
reporting the Recovery Act major actions -- Recovery Act funding and non-Recovery Act funding.
Examples of major actions could include items such as contracting, hiring, specified audits,
developmental/educational programs, purchases, etc. The third section provides for the reporting of
statistical accomplishments relating to Recovery Act work.
